                   AUDIT REPORT

                      Audit of NRC’s Management of
                      Agreements with Department of
                           Energy Laboratories

                       OIG-10-A-12     April 23, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          April 23, 2010



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S MANAGEMENT OF AGREEMENTS
                            WITH DEPARTMENT OF ENERGY LABORATORIES
                            (OIG-10-A-12)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Management of Agreements With Department of Energy Laboratories.

The report presents the results of the subject audit. Agency comments provided at the
March 12, 2010, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Kathleen Stetson, Team Leader, Financial and Administrative Audit Team,
at 415-8175.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee on Reactor
 Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Jr., Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Corporate Management
 and Chief Information Officer, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Officer
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl A. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                     Audit of NRC’s Management of Agreements with Department of Energy Laboratories



EXECUTIVE SUMMARY

     BACKGROUND

          The Energy Reorganization Act of 1974 authorized the Nuclear Regulatory
          Commission (NRC) to use the Department of Energy’s (DOE) research
          facilities and services to assist NRC in conducting its mission. In 1978,
          NRC and DOE executed a Memorandum of Understanding (MOU) that
          established the policy governing the relationship between NRC and DOE
          for NRC-funded research at DOE laboratories.

          There are currently 17 DOE laboratories nationwide and all are managed
          and operated by non-Government entities under contract with DOE. As of
          July 13, 2009, NRC had 186 active agreements with DOE laboratories
          totaling approximately $365 million.

          NRC Management Directive (MD) 11.7, NRC Procedures for Placement
          and Monitoring of Work with the U.S. Department of Energy, specifies the
          interagency responsibilities, authorities, and procedures for placing and
          monitoring work at DOE laboratories.

          The Division of Contracts is responsible for oversight of NRC work placed
          with DOE labs, though responsibility for awarding, administering, and
          managing DOE lab agreements is decentralized at NRC. The various
          program offices handle and track their own lab agreements with little
          involvement by other NRC offices.

          Project managers manage the DOE lab agreements for their respective
          offices; this includes preparing the office’s justification for placing work
          with DOE laboratories. The Office of the General Counsel reviews,
          provides advice and counsel, and makes recommendations regarding
          organizational conflict of interest (OCOI) concerns.

     PURPOSE

          The audit objective was to determine whether NRC has established and
          implemented an effective system of internal control over the placement
          and monitoring of work with DOE laboratories. Appendix A contains
          information on the audit scope and methodology.




                                            i
                   Audit of NRC’s Management of Agreements with Department of Energy Laboratories



RESULTS IN BRIEF

      NRC complies with its OCOI requirements prescribed by Section 170A of
      the Atomic Energy Act of 1954, as amended, and is consistent in
      assessing and resolving potential OCOIs prior to and after awarding work
      to a DOE lab.

      OIG identified opportunities for program improvements in the following
      areas:

         •   Source selection justifications.
         •   Audit coverage.
         •   Delegation of authority.

      Source Selection Justification

      MD 11.7 requires that project managers develop convincing justifications
      for using a DOE lab rather than a commercial source. However, 20 of 38
      lab agreement justifications reviewed by auditors did not effectively
      demonstrate why a DOE lab was preferred. Furthermore, 32 of the
      justifications lacked indication that commercial firm capabilities were
      assessed or considered as part of the decisionmaking process.
      Justifications were inadequate because (1) MD 11.7 guidance is unclear
      with regard to consideration of commercial sources, (2) offices typically do
      not include supporting background information and rationale in their DOE
      lab agreement files, and (3) NRC does not require independent review of
      all justifications by someone outside the originating office. Without
      adequately considering whether commercial firms can perform the work
      awarded to DOE labs, the agency cannot be certain that it is obtaining
      best value on these acquisitions.

      Audit Coverage

      To ensure the propriety of payments to DOE laboratories, NRC should
      receive the results of audits performed on the laboratories. To date, NRC
      has not received results of audits of DOE labs because the MOU between
      DOE and NRC does not address audit coverage. Consequently, NRC
      lacks assurance regarding the propriety of amounts paid for work
      performed by DOE labs.

      Delegation of Authority

      The NRC is authorized to use DOE research facilities and services to
      assist NRC in conducting its mission. Currently, the Office of International
      Programs (OIP) is one of the NRC offices that avails itself of this overall
      authority. Office of Management and Budget Circular A-123 states that


                                          ii
                Audit of NRC’s Management of Agreements with Department of Energy Laboratories



     management must clearly define and appropriately delegate areas of
     authority and responsibility. Currently, OIP is operating without a signed
     delegation of authority to award and administer DOE lab agreements
     because MD 11.7 does not include OIP as having the authority.
     Consequently, the agency is not fully adhering to the delegation of
     authority requirements contained in MD 11.7, which creates the potential
     for ineffective management of certain agreements.

R ECOMMENDATIONS

     This report makes recommendations to improve the agency’s
     management of agreements with DOE laboratories. A consolidated list of
     these recommendations appears in Section V of this report.

AGENCY C OMMENTS

     At an exit conference on March 12, 2010, agency management stated
     their agreement with the findings and recommendations in this report.
     Management also provided information that has been incorporated into
     this report as appropriate.




                                      iii
              Audit of NRC’s Management of Agreements with Department of Energy Laboratories



ABBREVIATIONS AND ACRONYMS

       DOE      Department of Energy

       DC       Division of Contracts

       FSME     Office of Federal and State Materials and Environmental
                Management Programs

       MD       NRC Management Directive

       MOU      Memorandum of Understanding

       NMSS     Office of Nuclear Material Safety and Safeguards

       NRC      Nuclear Regulatory Commission

       NRO      Office of New Reactors

       NRR      Office of Nuclear Reactor Regulation

       NSIR     Office of Nuclear Security and Incident Response

       OCOI     Organizational Conflict of Interest

       OIG      Office of the Inspector General

       OIP      Office of International Programs

       RES      Office of Nuclear Regulatory Research




                                    iv
                       Audit of NRC’s Management of Agreements with Department of Energy Laboratories



TABLE OF CONTENTS

        EXECUTIVE SUMMARY ........................................................................ i

        ABBREVIATIONS AND ACRONYMS ................................................... iv

        I.    BACKGROUND .............................................................................. 1

        II.   PURPOSE ...................................................................................... 4

        III. FINDINGS ...................................................................................... 5

                 A.      NRC ASSESSES AND RESOLVES POTENTIAL
                         OCOIS FOR LAB AGREEMENTS ..................................... 5

                 B.      SOURCE SELECTION JUSTIFICATIONS......................... 7

                 C.      AUDIT COVERAGE ......................................................... 13

                 D.      DELEGATION OF AUTHORITY ...................................... 14

        IV. AGENCY COMMENTS................................................................. 16

        V.    CONSOLIDATED LIST OF RECOMMENDATIONS ..................... 17


    APPENDICES

        A.       SCOPE AND METHODOLOGY ................................................ 18

        B.       SOURCE JUSTIFICATION ANALYSIS..................................... 20




                                                  v
                   Audit of NRC’s Management of Agreements with Department of Energy Laboratories



I.   BACKGROUND

        The Energy Reorganization Act of 1974 authorized the Nuclear Regulatory
        Commission (NRC) to use the Department of Energy’s (DOE) research
        facilities and services to assist NRC in conducting its mission. In 1978,
        NRC and DOE executed a Memorandum of Understanding (MOU) that
        established the policy governing the relationship between NRC and DOE
        for NRC-funded research at DOE laboratories. The MOU, last updated in
        1998, states that NRC may order and pay for services from DOE
        laboratories and includes an amended organizational conflict of interest
        (OCOI) provision. In this report, such arrangements are referred to as
        DOE lab agreements.

        There are currently 17 DOE laboratories nationwide and all are managed
        and operated by non-Government entities under contract with DOE.

        Management Directive 11.7

        NRC Management Directive (MD) 11.7, NRC Procedures for Placement
        and Monitoring of Work with the U.S. Department of Energy, specifies the
        interagency responsibilities, authorities, and procedures for placing and
        monitoring work at DOE laboratories. MD 11.7 objectives are to ensure
        that:

              •   Procedures for negotiating and managing agreements with DOE
                  are consistent with sound business practices and contracting
                  principles.

              •   An agencywide standard of contract management is uniformly
                  applied to projects placed with DOE.

                 A framework exists for program management control,
                  administration, monitoring, and closeout of projects placed with
                  DOE.

        As of July 13, 2009, NRC had 186 active agreements with DOE
        laboratories totaling approximately $365 million. Table 1 presents a
        breakdown of the active agreements by office.




                                          1
                                 Audit of NRC’s Management of Agreements with Department of Energy Laboratories




                                                   Table 1. Distribution by Office


                               Program Office 1              No. of Agreements                Total Value
                           FSME                                     8                               17,284,100
                           NMSS                                     4                                 9,172,000
                           NRO                                     11                              147,159,010
                           NRR                                     31                               28,317,500
                           NSIR                                    10                                 9,408,999
                           OIP                                      3                                 2,300,000
                           RES                                   119                               151,490,290
                           Total                                 186                             $365,131,899

                  Most of NRC’s DOE lab agreements are for work 5 years or less in
                  duration (see Table 2). The longest agreement, an umbrella agreement
                  with multiple task orders, has been active since 1997. Under that
                  agreement, Pacific Northwest Laboratory performs environmental review
                  and other activities for license renewal applications submitted to NRC.



                                                Table 2. Duration of Agreements


                                          Agreement Length                      No. of Agreements

                               > 10 years                                                1

                               > 5 years, ≤ 10 years                                    20

                               >1 year, ≤ 5 years                                     158

                               ≤ 1 year                                                  7

                               Total                                                  186




1
    See “Acronyms and Abbreviations” section of this report for full program office names.


                                                        2
             Audit of NRC’s Management of Agreements with Department of Energy Laboratories



Managing DOE Lab Agreements

Responsibility for awarding, administering, and managing DOE lab
agreements is decentralized at NRC. The various program offices handle
and track their own lab agreements with little, if any, involvement by other
NRC offices. Offices manage their agreements through a collaborative
effort among project managers, associate competition advocates,
technical assistant project managers, and office directors.

Project managers manage the DOE lab agreements for their respective
offices. This includes preparing the office’s justification for placing work
with DOE laboratories and providing oversight for technical and
administrative aspects of the agreement, including the budget. Project
managers maintain “agreement files” that contain relevant documentation
for each lab agreement.

The associate competition advocate performs an independent review of
both the project manager’s justification and the project statement of work
to determine whether the facts and rationale presented support the criteria
for placement of work with DOE. Based on the review, the associate
competition advocate recommends that the office director or designee
approve or disapprove the proposed agreement.

Technical assistant project managers assist the project managers in
administering agreements, and office directors are responsible for
ensuring that DOE laboratory projects are properly executed, monitored,
and closed out.

Non-program office entities that are sometimes involved in the process
include NRC’s Procurement Oversight Committee, the Office of the
General Counsel, and the Division of Contracts (DC).

The Procurement Oversight Committee – composed of seven individuals
representing the Offices of the Chief Financial Officer, Executive Director
for Operations, General Counsel, and Administration – reviews proposed
lab agreement projects exceeding $1 million to facilitate streamlining the
Chairman review process. 2

2
  A project or project modification with a value equal to or greater than $1 million, or a
modification that will result in a project with a total value equal to or greater than
$1 million, requires preparation of a Chairman paper. These papers are submitted to the
Chairman for a written response, and the Chairman's written approval is required prior to
initiating procurement action. The Chairman paper review process was directed by the
Commission in 2005 to keep the Chairman informed of program activities supported
through the use of procurements. To facilitate the process, the Procurement Oversight
Committee reviews Chairman papers for all proposed procurements, including lab
agreements.



                                    3
                            Audit of NRC’s Management of Agreements with Department of Energy Laboratories



               The Office of the General Counsel reviews, provides advice and counsel,
               and makes recommendations regarding organizational conflict of interest
               (OCOI) concerns. An OCOI may occur when a laboratory or an operator
               of a DOE facility has past, present, or planned interests or work that either
               directly or indirectly relates to the proposed work to be performed under
               an NRC project. For example, if a laboratory or an operator of a
               laboratory provides advice and recommendations to NRC in the same
               technical area where it is also providing consulting assistance to any
               organization regulated by NRC, this is a circumstance that may give rise
               to an OCOI.

               MD 11.7, states that DC is responsible for oversight of NRC work placed
               with DOE labs. As part of the oversight, DC conducts periodic reviews of
               selected agreement files maintained by project managers in the NRC
               program offices. In 2008, a DC contractor reviewed agreement files using
               a file review checklist from MD 11.7. The contractor reviewed
               80 agreement files and produced separate reports containing
               recommendations pertaining to information clarity, documentation
               adequacy, and adherence to sound contract management practices for
               each NRC program office. NRC’s DOE Users Group 3 is responsible for
               resolution of the recommendations.


II.    PURPOSE

               The audit objective was to determine whether NRC has established and
               implemented an effective system of internal control over the placement
               and monitoring of work with DOE laboratories. Appendix A contains
               information on the audit scope and methodology.




3
  The DOE Users Group consists of representatives from DC and the program offices that award and
administer DOE lab agreements. The DOE Users Group was established to keep program offices
informed of new issues and to assist the offices in sharing information.


                                                   4
                             Audit of NRC’s Management of Agreements with Department of Energy Laboratories



III.    FINDINGS

                NRC complies with its OCOI requirements prescribed by Section 170A of
                the Atomic Energy Act of 1954, as amended, and is consistent in
                assessing and resolving potential OCOIs prior to and after awarding work
                to a DOE lab.

                OIG identified opportunities for program improvements in the following
                areas:

                    •   Source selection justifications.
                    •   Audit coverage.
                    •   Delegation of authority.

                Addressing these areas will improve the effectiveness of internal control
                over the award and administration of agreements with DOE laboratories.


        A. NRC Assesses and Resolves Potential OCOIs for Lab Agreements

                NRC complies with its OCOI requirements prescribed by Section 170A of
                the Atomic Energy Act of 1954, as amended, and is consistent in
                assessing and resolving potential OCOI issues relative to DOE lab
                agreements.

                MD 11.7 requires that prior to awarding DOE lab work, NRC must
                determine whether an OCOI exists between a DOE laboratory and the
                NRC. To accomplish this, project managers must first identify, from the
                lab’s proposal and other information sources, whether the potential for an
                OCOI exists in conjunction with an NRC project placed at a DOE lab. If
                the project manager becomes aware of a potential conflict, the project
                manager is expected to discuss the matter with their managers, DC, and
                the Office of the General Counsel to determine steps to eliminate or
                mitigate the OCOI. If NRC determines that an OCOI cannot be mitigated,
                but the DOE lab is the only available source, the Executive Director for
                Operations may approve a waiver, prepared by the cognizant office, to
                allow the lab to perform the work. 4

                OIG auditors selected and reviewed a random sample of 37 agreement
                files (representing approximately 20 percent of the 186 NRC active
                agreements as of July 13, 2009), to determine:


4
 The Energy Policy Act of 2005 proposes that should a project reflecting extraordinary circumstances
require placement at a DOE lab under circumstances where an OCOI cannot be mitigated, the project
may be placed nonetheless at the lab, provided a determination of adequate justification is executed.


                                                    5
                              Audit of NRC’s Management of Agreements with Department of Energy Laboratories



                (1) Whether the proposals addressed OCOI.

                (2) If actual or potential OCOIs were resolved.

                Of the 37 files reviewed, 35 files (95 percent) indicated that OCOIs had
                been addressed. 5 Of these 35 files, 6 files (16 percent) were identified as
                having a potential OCOI and the paperwork in the agreement folder
                identified that the project managers took the appropriate steps to resolve
                the OCOI or obtain a waiver signed by the Executive Director for
                Operations. Of the six files identified as having a potential OCOI, three
                had a waiver.




5
   Of the 37 files reviews, 2 did not contain documentation indicating that OCOI was addressed. The first
file contained template language found in MD 11.7, requesting the DOE laboratory to identify whether
there is a conflict or not. However, there was no response from the lab documented in the file. The
second file did not contain the DOE lab proposal, which would have addressed OCOI. Therefore,
auditors were unable to assess OCOI for this file.


                                                     6
                              Audit of NRC’s Management of Agreements with Department of Energy Laboratories



        B. Source Selection Justifications

                MD 11.7 requires that project managers develop convincing justifications
                for using a DOE lab rather than a commercial source. However, 20 of 38 6
                lab agreement justifications reviewed by auditors did not effectively
                demonstrate why a DOE lab was preferred. Furthermore, 32 of the
                justifications lacked indication that commercial firm capabilities were
                assessed or considered as part of the decisionmaking process.
                Justifications were inadequate because (1) MD 11.7 guidance is unclear
                with regard to consideration of commercial sources, (2) offices typically do
                not include supporting background information and rationale in their DOE
                lab agreement files, and (3) NRC does not require independent review of
                all justifications by someone outside the originating office. Without
                adequately considering whether commercial firms can perform the work
                awarded to DOE labs, the agency cannot be certain that it is obtaining
                best value on these acquisitions.

                        Criteria for Award to a DOE Lab

                MD 11.7 requires offices to develop convincing justifications for using a
                DOE lab instead of a commercial firm to perform work for NRC. The MD
                directs project managers to prepare justifications that cite and support one
                or more of the following five criteria for using a DOE lab as opposed to a
                commercial source:

                •   “Unique technical disciplines or combinations of disciplines.”
                    Only a laboratory possessing the unique technical capabilities or a
                    unique combination of technical skills and highly specialized
                    experience can undertake and successfully complete the project.

                •   “Specialized facilities or equipment” may be required to complete
                    the project.

                •   “Use of patents, copyrights, proprietary information, or secret
                    processes.” Sometimes, one or a combination of these items is
                    essential to the project and the requirement cannot be revised to
                    permit competition and open disclosure in the commercial sector.

                •   “Accrued knowledge and equipment or facilities” may necessitate
                    timely placement of work with DOE when another source cannot
                    realistically perform the necessary work without expending significant
                    time and effort to understand previous work and achieve results.

6
  The Office of the Inspector General (OIG) reviewed a random sample of 37 agreement files. One of the
files contained two justifications, both of which OIG reviewed, for a total of 38 justifications reviewed.



                                                     7
                              Audit of NRC’s Management of Agreements with Department of Energy Laboratories



                •   “Urgent requirements” may necessitate immediate initiation of work
                    under a project to fulfill the office mission.

                Additionally, MD 11.7 requires that when reasonable doubt remains as to
                whether a commercial firm can perform the work, a “sources-sought
                announcement”7 should be initiated. This requirement aligns with the
                prudent business practice of exploring all available options before making
                a purchase decision.

                Inadequate Justifications and Documentation of Consideration of
                Commercial Sources

                More than half of the DOE lab agreement justifications reviewed did not
                effectively demonstrate why work was placed with DOE labs instead of a
                commercial firm. Furthermore, most of the justifications lacked indication
                that commercial firm capabilities were assessed or considered as part of
                the decisionmaking process.

                        Inadequate Justifications

                Auditors reviewed 38 justifications for using a DOE lab. More than half of
                the justifications – 20 of 38 – were weak or inadequate and did not
                effectively demonstrate why a DOE lab was more qualified to perform the
                work than a commercial firm. In addition, the agreement files contained
                little indication that commercial sources had been considered. Some
                justifications stated that DOE labs had unique capabilities when it
                appeared that there was a strong likelihood that organizations other than
                DOE labs also had the capabilities to perform the work. For example, one
                justification stated that a particular DOE laboratory should receive an
                award because the DOE lab has a radiologically protected hot shop and
                machining and metallurgical analysis capabilities. 8 However, these
                capabilities exist in organizations other than DOE labs. 9 Another
                justification for a non-competitive award to a DOE lab stated that the lab
                had the unique ability to perform a state-of-the-art survey in technology
                areas within the instrumentation and control discipline as well as identify


7
 A sources-sought announcement is a tool for surveying the market to determine if there are potential
contractors that can satisfy Government requirements. NRC publishes these announcements on
FedBizOpps, a Web site that publicizes Federal Government procurement opportunities.

8
 This work involved the metallurgical examination of a radioactive metallic specimen from a salvaged
nuclear power plant reactor vessel head. Special facilities were needed due to the radioactivity of the
head and to perform the metallurgical tests.
9
 Organizations that have the capability to perform the analysis in this example include private research
and development companies, non-profit research and development companies, and private sector
companies.


                                                     8
                     Audit of NRC’s Management of Agreements with Department of Energy Laboratories



emerging technologies applicable to the nuclear industry when, in fact,
many organizations could have performed the same tasks. Other
justifications stated that the work should be awarded to a DOE lab
because proprietary information was required to perform some of the
work. However, auditors learned that companies routinely establish
confidentiality agreements with other companies to allow them to release
proprietary information to other companies without fear it will be
improperly disclosed.

Figure 1 illustrates which criteria NRC offices used (for the 38 justifications
reviewed) to justify selection of a DOE laboratory to perform work for the
agency. In many cases, more than one criterion was used. The red bars
reflect the number of times a criterion was used but did not, in OIG’s view,
justify placement of the work with a DOE lab. The grey bars indicate the
number of times a criterion was effective in justifying placement of work
with a DOE lab.




                                 Figure 1. Criteria for Placement of Work with DOE

                                Urgent Requirements



     Accrued Knowledge and Equipment or Facilities


Use of Patents, Copyrights, Proprietary Inofrmation, or                                               Weak or Inadequate Justifications
                 Secret Processes                                                                     Well Supported Justifications

                  Specialized Facilities or Equipment


    Unique Technical Disciplines or Combinations of
                      Disciplines


                                                          0       2   4   6   8   10   12   14   16



OIG interviewed executives of a private organization with capabilities to
conduct research in engineering and physical sciences and presented
18 categories of work that NRC has awarded to DOE laboratories based
on “unique abilities” of the laboratories. The executives confidently



                                                              9
           Audit of NRC’s Management of Agreements with Department of Energy Laboratories



represented that their organization has the capability to perform the work
in 12 of the 18 areas discussed. See Appendix B for a listing of the
12 areas. OIG notes that the executives’ confidence does not prove that
their organizations could fulfill NRC’s specific needs. It does, however,
indicate that other organizations warrant serious consideration as part of
the decisionmaking process.

Consideration of Commercial Sources Inadequately Documented

Most of the justifications reviewed by OIG lacked documentation that NRC
considered capabilities of commercial firms. Specifically, during OIG’s
review of agreement files, auditors determined that 32 of the 37 files
reviewed (86 percent) lacked documentation demonstrating why the
agency selected a DOE laboratory over a commercial contractor.
References to commercial organizations simply asserted, without analysis
or other basis, that an entity other than a DOE lab would expend greater
time and effort than the selected DOE lab. However, the files lacked
detailed documentation to indicate that commercial sources were
considered or explored as a possible option.

Causes of Inadequate Justifications

Justifications were inadequate because (1) MD 11.7 guidance is unclear
with regard to consideration of commercial sources, (2) office DOE lab
agreement files typically do not include supporting background information
and rationale, and (3) NRC does not require independent review of all
justifications by someone outside the originating offices.

       Unclear Guidance

Although MD 11.7 states that one of five criteria must be used to support
choosing a DOE lab over a commercial source, the guidance does not
specify what such support should include.

Last year, DC attempted to implement a sources-sought initiative to
encourage consideration of commercial sources, but the effort has stalled.
As part of this initiative, DC asked program offices to identify projects that
would normally be awarded directly to DOE. DC’s plan was to assist
program offices in preparing a sources-sought announcement to post on
FedBizOpps to help ensure that offices obtained information on
commercial options before choosing a DOE lab to perform the work.
While many of the program offices have not actively participated in
identifying work to initiate sources-sought notices, three offices have
recently posted sources-sought announcements.




                                 10
           Audit of NRC’s Management of Agreements with Department of Energy Laboratories



      Justifications Lack Supporting Background Information and
      Rationale

MD 11.7 specifically assigns responsibility for preparing and reviewing the
justifications to the office project managers and associate competition
advocates. The project managers are responsible for developing and
writing the justification, and gathering the necessary supporting
background information. The associate competition advocate is
responsible for reviewing the project manager’s written justification to
determine whether the facts and rationale presented by the project
manager support the criteria for placement of work with DOE. Despite
these requirements, offices typically do not include in their DOE lab
agreement files supporting background information and rationale. Instead,
in many cases there is simply a statement identifying one of the five
criteria without any background information or rationale provided.

      Not All Justifications Are Reviewed Outside Originating Office

NRC does not require all lab agreement justifications to be reviewed
outside of the originating office. Only agreements that are greater than
$1 million are reviewed by other NRC entities. As noted in the
Background section of this report, the Procurement Oversight Committee
and DC review all proposed agreements exceeding $1 million as part of
the Chairman Paper review process, but there is no similar, independent
review of justifications for agreements below $1 million.

Nearly 80 percent (146) of the 186 lab agreements active as of July 2009
did not receive an independent review prior to award. OIG contends that
an independent review for all agreements, including those costing less
than $1 million, would help to ensure the appropriateness of placing work
with a DOE lab.

NRC May Not Be Obtaining Best Value

The majority of work assigned to DOE laboratories results from a non-
competitive process, foregoing tools such as a sources-sought
announcement to allow for a competitive bid process. Without a more
thorough process that includes issuing a sources-sought announcement
and independent review of justifications, NRC may be missing out on cost
savings opportunities and may not be obtaining best value.




                                 11
           Audit of NRC’s Management of Agreements with Department of Energy Laboratories



Recommendations

OIG recommends that the Executive Director for Operations:

1.   Revise MD 11.7 to require NRC offices to consider the use of
     commercial sources through market research (e.g., sources-sought
     announcements, procurement history, expert knowledge) as part of
     the decisionmaking process in choosing to use a lab, and fully
     document the results/conclusions in the agreement files.

2.   Clarify MD 11.7 to emphasize the requirement to fully document the
     rationale and basis for using a DOE lab.

3.   Revise MD 11.7 to require independent review of justifications by DC
     personnel to ensure that commercial sources were fully considered.

4.   Issue interim guidance to address recommendations 1 - 3 pending
     revision of MD 11.7.

5.   Direct DC to work with agency program and support offices to
     develop and implement milestones for more robust market research
     requirements prior to awarding DOE lab agreements.




                                 12
                              Audit of NRC’s Management of Agreements with Department of Energy Laboratories



        C. Audit Coverage

                To ensure the propriety of payments to DOE laboratories, NRC should
                receive the results of audits performed on the laboratories. To date, NRC
                has not received results of audits of DOE labs because the MOU between
                DOE and NRC does not address audit coverage. Consequently, NRC
                lacks assurance regarding the propriety of amounts paid for work
                performed by DOE labs.

                The Cooperative Audit Strategy implemented by DOE OIG in 1992
                supports DOE’s Acquisition Guide that requires labs to maintain an
                internal audit function. DOE OIG, in turn, is required to provide guidance
                on the sufficiency of the design and operation of the internal audit
                activities. DOE OIG provides oversight of the DOE laboratories’ internal
                audit activities.

                OIG reviewed eight DOE OIG reports pertaining to DOE laboratories’
                internal control structure and its impact on cost allowability. The eight
                reports covered various periods during FYs 2004 through 2007 and
                revealed a total of $11,149,319 10 in questioned and unresolved costs. Of
                these costs, $2,719,875 has been recovered or resolved and $8,429,444
                remains outstanding. Some of these questioned and unresolved costs
                could be applicable to NRC agreements, which NRC could potentially
                recover.

                NRC does not receive DOE lab audit results because the MOU between
                NRC and DOE, last updated in 1998, does not provide for this to occur.
                Without access to audit information, NRC cannot assure the propriety of
                amounts paid for work performed by the DOE laboratories. The lack of
                audit coverage limits NRC’s ability to effectively monitor and make
                decisions regarding agency funding of work at DOE labs.

                Recommendation

                OIG recommends that the Executive Director for Operations:

                       6. Initiate efforts with the Department of Energy to update the MOU
                          to provide NRC with timely audit reports.




10
  The portion of this total that pertains to NRC work is unclear based on the level of detail contained in
the reports.


                                                     13
                             Audit of NRC’s Management of Agreements with Department of Energy Laboratories



        D. Delegation of Authority

                As previously indicated, the NRC is authorized to use DOE research
                facilities and services to assist NRC in conducting its mission. Currently,
                the Office of International Programs (OIP) is one of the NRC offices that
                avails itself of this overall authority. OMB Circular A-123 states that
                management must clearly define and appropriately delegate areas of
                authority and responsibility. Currently, OIP is operating without a signed
                delegation of authority 11 to award and administer DOE lab agreements
                because MD 11.7 does not include OIP as having the authority.
                Consequently, the agency is not fully adhering to the delegation of
                authority requirements contained in MD 11.7, which creates the potential
                for ineffective management of certain agreements.

                OIP has been awarding and managing DOE lab agreements for the past
                15 years; prior to 2007, the office had the appropriate delegation of
                authority to do so based on wording in the then-current version of
                MD 11.7. That version of MD 11.7 generally delegated to all NRC office
                directors, regional administrators, and their designees the authority to
                enter into such agreements. However, in March 2007, NRC issued a
                revised MD 11.7, which did not provide for a general delegation of this
                function, but instead listed specific offices to which the function was
                delegated. OIP was not included in the list; however, the revised MD 11.7
                states that other specific delegations may be issued at the discretion of
                the Chairman and the Executive Director for Operations.

                OIP managers recognized this change, and in March 2008 contacted the
                previous Chairman’s office to point out the omission and request that a
                delegation of authority be granted to them. A member of the then-
                Chairman’s staff responded to OIP that the revised MD did not limit an
                office’s authority if the office had already placed work with DOE labs and
                informed the office that a signed delegation of authority was not needed.
                Consequently, a delegation of authority was never signed.

                OIG contends that to avoid confusion and achieve full compliance with the
                MD, a written delegation of authority is necessary. Without agency staff
                successfully following all agency guidance, the NRC cannot be assured
                that all offices are taking appropriate and consistent actions with regard to
                the administration of agreements. Potentially, this could lead to
                inconsistencies and confusion among staff.




11
  A delegation of authority gives authority to offices to award, extend, modify, and terminate DOE
laboratory agreements.


                                                   14
          Audit of NRC’s Management of Agreements with Department of Energy Laboratories



Recommendation

OIG recommends that the Chairman:

    7. Issue a delegation of authority to OIP to award, extend, modify,
       and terminate DOE lab agreements.




                                15
                   Audit of NRC’s Management of Agreements with Department of Energy Laboratories



IV.   AGENCY COMMENTS

         At an exit conference on March 12, 2010, agency management stated
         their agreement with the findings and recommendations in this report.
         Management also provided information that has been incorporated into
         this report as appropriate.




                                         16
                   Audit of NRC’s Management of Agreements with Department of Energy Laboratories



V.   CONSOLIDATED LIST OF RECOMMENDATIONS

         OIG recommends that the Executive Director for Operations:

            1. Revise MD 11.7 to require NRC offices to consider the use of
               commercial sources through market research (e.g., sources-sought
               announcements, procurement history, expert knowledge) as part of
               the decisionmaking process in choosing to use a lab, and fully
               document the results/conclusions in the agreement files.

            2. Clarify MD 11.7 to emphasize the requirement to fully document the
               rationale and basis for using a DOE lab.

            3. Revise MD 11.7 to require independent review of justifications by
               DC personnel to ensure that commercial sources were fully
               considered.

            4. Issue interim guidance to address recommendations 1 through 3
               pending revision of MD 11.7.

            5. Direct DC to work with agency program and support offices to
               develop and implement milestones for more robust market research
               requirements prior to awarding DOE lab agreements.

            6. Initiate efforts with the Department of Energy to update the MOU to
               provide NRC with timely audit reports.

         OIG recommends that the Chairman:

            7. Issue a delegation of authority to OIP to award, extend, modify, and
               terminate DOE lab agreements.




                                         17
                  Audit of NRC’s Management of Agreements with Department of Energy Laboratories


                                                                                    Appendix A
SCOPE AND METHODOLOGY

       Auditors evaluated NRC’s management of agreements with the DOE
       laboratories to determine whether NRC has established and implemented
       an effective system of internal control over the placement and monitoring
       of work with DOE.

       The audit team reviewed the following documents and others to identify
       criteria for managing DOE lab agreements:

          •   Management Directive (MD) 11.7, NRC Procedures for Placement
              and Monitoring of Work With the U.S. Department of Energy (DOE),
              March 2, 2007.

          •   The Energy Reorganization Act of 1974, NUREG-0980, Volume 1,
              No. 6.

          •   The 1998 Memorandum of Understanding between NRC and DOE
              governing NRC funded work performed at the DOE Laboratories.

       Auditors conducted interviews with NRC staff and managers from DC,
       OIP, the Office of the General Counsel, the Office of Nuclear Security and
       Incident Response, the Office of Federal and State Materials and
       Environmental Management Programs, the Office of Nuclear Regulatory
       Research, the Office of New Reactors, the Office of Nuclear Material
       Safety and Safeguards, and the Office of Nuclear Reactor Regulation.
       Auditors also interviewed the DOE Office of the Assistant Inspector
       General for Audit Services to determine audit coverage of DOE
       laboratories.

       Auditors reviewed a random sample of agency agreement files
       representing 20 percent of active agreements as of July 13, 2009, for
       compliance with applicable requirements.

       This audit did not cover the closeout of DOE lab agreements; this area will
       be addressed in an audit planned for initiation during FY 2010.

       This work was conducted from March 2009 through December 2009 in
       accordance with generally accepted Government auditing standards.
       Those standards require that we plan and perform the audit to obtain
       sufficient, appropriate evidence to provide a reasonable basis for our
       findings and conclusions based on our audit objectives. We believe that
       the evidence obtained provides a reasonable basis for our findings and




                                        18
          Audit of NRC’s Management of Agreements with Department of Energy Laboratories



conclusions based on our audit objectives. The work was conducted at
NRC headquarters in Rockville, MD, by Steven Zane, Team Leader;
Kathleen Stetson, Audit Manager; Kevin Nietmann, Technical Advisor;
Andrea Ferkile, Analyst; and Jason Brodsky, Summer Intern.




                                19
                                                    Audit of NRC’s Management of Agreements with Department of Energy Laboratories



                                                                                                                       Appendix B
SOURCE JUSTIFICATION ANALYSIS

             OIG audit team members interviewed executives of an organization that appeared to have the capability to
             perform work similar to that reviewed in the lab agreement justifications for non-competitive work awards to
             DOE laboratories described in the “Inadequate Justifications" section of this audit report. OIG reviewed
             18 different types of work with the executives. The executives had responsibility for those divisions of their
             organization that would perform the work disciplines reviewed. OIG asked them if they felt their organization
             had the facilities, experience, and expertise to perform the work. OIG found that the executives expressed
             confidence that they could perform the work successfully in 12 of the 18 work areas. The 12 work areas and
             the executives’ comments are listed below.

                      Work Area                                        Executives’ Comments

Examination of nozzles and J groove welds                  Have broad NDE expertise and have done pre-
(destructive and nondestructive examination (NDE)) of      and in-service reactor pressure vessel
salvaged reactor vessel head sections to better            inspection for critical welds.
characterize cracking.
Time Domain Soil-Structure-Interaction Modeling.           Have done such work for a private spent fuel
                                                           storage facility and NRC.
Evaluation of severe accident mitigation effectiveness.    Have technical expertise to do this work.
Probabilistic Risk Assessment (PRA), dose, and risk        Have done lots of PRA dose calculation work.
calculations for radiation from low level waste.
Survey of state of the art technology in the               Have done analog and digital work in the I&C
instrumentation and control (I&C) field.                   field.

Validate residual weld stress models for stress            This was an area of strength and they could do
corrosion cracking flaw evaluation in pressurizer nozzle   this kind of work.
dissimilar metal butt welds.
Input Equipment Performance and Information                Have a division that works on databases and
Exchange data into the Reactor Operating Experience        that they could not only do the work, but
Database (RxOpED) and maintain the RxOpED.                 probably improve the input and output code.

                                                             20
                                                    Audit of NRC’s Management of Agreements with Department of Energy Laboratories


Thermal and structural analysis of spent fuel storage     A "strong yes."
(SFS) and transportation casks using COBRA SFS
code.
Provide technical support for NRC to advise the           Have done lots of calculations for radioactive
Department of Transportation on international             material transport, domestic and international.
transportation of radioactive materials.
Technical support of new reactor design certification.    Yes, they could do this work.
Maintain Nuclear Power Plant effluent database per        Could do this database work and also have the
reporting requirements in Regulatory Guide 1.21.          ability to do effluent plume modeling.
Develop annual report to Congress on statistically        Yes, could do this work.
adverse trends.




                                                             21
